                                 ~ A T I O N A L S C I E N C E FOUNDATION
                                     WASHINGTON, D.C. 20550




    Office of
Inspector General



 CLOSEOUT MEMORANDUM

         DATE: May 6, 1 9 9 1




            TO: F i l e


 Sciences,
                                                                                w h o graduated i n




                       .
 and w e granted.

 A r e v i e w of t h e g r a n t f i l e s revealed t h e f o l l o w i n g :

         1.   O n D e c e m b e r 9, 1987, G r a n t N o .               B S R - 8 7 1 7 5 6 4 for
         $62,953 w a s a w a r d e d to-esearch                           Foundation w i t h




         2. O n . M a r c h 30, 1988, R E U ~ a m e n d m e n t #1 f o r $8,000 w a s
         awarded to              f o r a d d i t i o n a l -s-u p p o r t of t h e above-
         menti...e?i                                                  w a s one of t w o


   *   - l ~ e s e a r c ha t   U n d e r g r a d u a t e Institution.
         2 ~ e s e a r c hExperience f o r U n d e r g r a d u a t e .
     undergraduates io receive support -under thls award.
                                                            A




     3. On April 7, 1989,-amendment       #2 for $8,000 was
     awarded t         for additional support of the above-
     mentioned gran     Again, h                 'was one of          ~
     two undergraduates to receive support under this award.
     1. On April 2, 1 9 9 0 , a          n-        submitted the
     final project report for this grant and amendments.
                     ~ the - final project report, Watson was a
     ~ c c o r d i n-to
     contributor to the research and publications.




    budget list support of $16,650 for three undergraduate
    students.   In the proposal,
    previous NSF supported project.
                                    F      is listed as co-
    author on publications abou the research from the
                                       In addition,-
    applied for
    listed as a  P     upplement in 1991 an-was         not
                  u ent under the supplement. On April 22,
    1991, the -upplement       request was denied because
    limited funds in the program were targeted for diverse
    new projects.




                                           -
On April 22, 1991, I interviewed                Program Director,
                       is the program  officep for  these grants.
                           wards differ from the     supplements.
                            grants are administered in accordance
                               of a reuular research arant. The
spirit of       rants are to advance -research at undergraduate
                 the research should involve and have an effect
on undergraduates.             said that      awards do not have
specific restricti-how             to use funds allocated for
undergraduates.   If the PI needed to use funds for a graduate
research assistant, the PI may use some of the funds allocated
for undergraduates, but the PI can not change the objective or




                                                        -
scope of the research or violate any of the other conditions
stated in the general grant conditions.
According                                   or   supplements have
                                                           can only
                                                        stated that
since there were no -funds
June 1990,
the
funds.
                             '
                 could continue to pay
                  she graduated in May 1
would have been used from
                                              for her work on
                                               These payments
                               grant funds as opposed to

I obtained and reviewed the Program Announcement for
                 be used for other purposes onlyrif the objective or scope of the
                 research is not changed.      I found nothing in the program
                 announcement or grant files indicating that there were any
                 specific restrictions on money budgeted for support of
                 undergraduate students.
                 Conclusion
                 Because: (1) no-funds      could have been involved in the project
                 after June 1990; (2) payments to-         f r o m funds would be

    - -   - -.
                 allowable;
                 files
                 - --  that
                     .--      a    3) there is sufficient evidence in the grant
                                    actually did contribute to the research, there
                 is no basis for cont3~uing-th~s-inveS;t-~ga~ionat the--present time - - - - -   -   --

I                with the limited resources of the Investigations Unit.
                 This file is closed.
                                      *
